TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Internal Revenue Service Building Flood
                    Caused No Measurable Impact on Tax
                               Administration



                                         February 7, 2007

                              Reference Number: 2007-30-028




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           February 7, 2007


 MEMORANDUM FOR COMMISSIONER, INTERNAL REVENUE SERVICE

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report - The Internal Revenue Service Building Flood
                             Caused No Measurable Impact on Tax Administration
                             (Audit # 20065E015)

 This report presents the results of our review of the closing of the Internal Revenue Service (IRS)
 National Headquarters building due to a flood. The overall objective of the review, initiated at
 the request of the Ranking Member of the United States Senate Committee on Finance, was to
 determine the extent and nature of disruptions to IRS operations and to identify the functions
 most affected by the flood. The request also asked that we determine the cost and challenges the
 IRS faced in dealing with the flood, how it plans to pay for remediation, and the impact on
 taxpayers and tax administration.

 Impact on the Taxpayer
 In June 2006, the subbasement and basement of the IRS National Headquarters building in
 Washington, D.C., were flooded with over 20 feet of water. The IRS responded by
 implementing business resumption plans that contain specific procedures for managing such
 events. While the flood displaced over 2,200 IRS personnel who worked in the building, we
 found no measurable impact on taxpayers and tax administration.

 Synopsis
 Heavy rains in the Washington, D.C., area on June 25, 2006, flooded the IRS National
 Headquarters building and caused extensive damage to electrical, heating, and air conditioning
 systems in the subbasement of the building. The water also destroyed offices, vehicles, furniture,
 and computer equipment located in the basement and garage. Damage estimates as of
 September 2006 show the General Services Administration and the IRS expect to spend
                     The Internal Revenue Service Building Flood Caused No
                            Measurable Impact on Tax Administration



approximately $54 million to repair or replace equipment and restore the building to a safe and
usable condition.
While the flood displaced over 2,200 IRS personnel who worked in the Headquarters building,
we found no measurable impact on taxpayers and tax administration. We attribute this to the
nature of the work performed at this building and the contingency plans the IRS had in place and
implemented to manage the crisis. The IRS personnel who work in the Headquarters building
are involved with strategy, program planning and monitoring, and other activities that do not
require a significant amount of day-to-day contact with taxpayers. The IRS has also developed
an array of contingency plans that contain specific procedures for managing situations that may
disrupt normal operations.
Although we did not conduct indepth evaluations of each of the contingency procedures
followed, we did inspect the damaged areas in the building, survey IRS executives and
employees, and review a damage assessment prepared for the General Services Administration.
In doing so, we noted considerable evidence that IRS officials closely monitored and coordinated
efforts to recover from the flood and resume business operations as quickly as possible. A
centralized office was established in New Carrollton, Maryland, where IRS officials worked to
direct recovery and business resumption activities, coordinate administrative issues, track costs,
and arrange temporary work space for personnel displaced by the building’s closure.
The IRS reported, and we confirmed during a walk-through of the building, that cleanup and
decontamination activities were completed by mid-July and dehumidifiers had been put in place
to dry the building so rebuilding efforts could be promptly started. Notably, IRS top executives
have started the process of assuring employees that the building will be returned to a safe and
usable condition. This is a particularly important topic to continue addressing because our
survey of 209 IRS employees who worked in the building before the flood found that
116 (56 percent) of the employees have health and safety concerns over returning to the building
due to potential mold and other problems related to moisture-damaged areas.
While the IRS successfully continued operations following the flood and closure of its
Headquarters building, we have observations in two areas that the IRS may find useful in
preparing for and responding to future emergencies. Our first observation involves increasing
the availability of laptop computers for telecommuting so more IRS personnel can continue
working during emergencies. Many IRS personnel who were displaced by the flood were either
unable to telecommute or unable to do so effectively, which resulted in granting IRS personnel
approximately 101,000 hours of administrative leave (excused absence from work with no loss
of pay) that may have otherwise lowered the $4.2 million of salary costs associated with the
leave.
Our second observation and possible next step the IRS could take is to complete a
comprehensive assessment that captures the overall successes and lessons learned in responding


                                                                                             2
                     The Internal Revenue Service Building Flood Caused No
                            Measurable Impact on Tax Administration



to and recovering from the flood. Such an assessment could provide a roadmap for IRS officials
to use in the future when faced with a similar challenge or one of greater magnitude.

Recommendations
We recommended the Chief Human Capital Officer develop a business case for deciding
whether to expand telecommuting participation by increasing the availability of laptop
computers for IRS personnel, including comparing the various costs and benefits associated with
replacing desktop computers as they reach the end of their useful lives with laptop computers.
Additionally, the Chief, Agency-Wide Shared Services, should ensure a comprehensive analysis
is completed and well documented on the IRS’ overall performance in responding to and
recovering from the flood.

Response
IRS management partially agreed with the first recommendation and agreed with the second
recommendation. The IRS agreed that expanding telecommuting participation and the use of
laptops can serve business resumption needs. The IRS noted that, during its incident
management and business resumption preparedness activities, it will advocate the consideration
and use of telecommuting as a contingency planning strategy, encourage using laptops in
emergency situations, and recommend that these decisions be included in its business
resumptions plans. In its comments, however, the IRS also expressed the position that our first
recommendation extended beyond the scope of its Chief Human Capital Officer’s responsibility
and, therefore, did not commit to developing a business case for deciding whether to expand
telecommuting participation by increasing the availability of laptop computers for its personnel.
Although the IRS was not fully responsive to our first recommendation, it was to our second.
The IRS indicated it is finalizing a document to capture the analysis conducted and lessons
learned from the flood. Management’s complete response to the draft report is included as
Appendix VI.
Office of Audit Comment: We are pleased the IRS recognized the important role that
telecommuting and the availability of laptops can play in preparing for and responding to
emergency events, so the risk of disrupting Federal Government services is minimized. We are
concerned, however, about the IRS’ decision to advocate, rather than require, that its business
units develop business case analyses for deciding whether to expand telecommuting participation
by increasing the availability of laptop computers for its personnel. Without such analysis,
business units may not be as likely to take all the necessary steps to ensure their personnel are
well positioned to continue delivering services and performing operations in the event of an
extended emergency.



                                                                                             3
                    The Internal Revenue Service Building Flood Caused No
                           Measurable Impact on Tax Administration



Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5894.




                                                                                        4
                            The Internal Revenue Service Building Flood Caused No
                                   Measurable Impact on Tax Administration




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Contingency Plans Were in Place and Promptly Implemented to
          Help Minimize the Impact on Taxpayers and Tax Administration ..............Page 3
          Issues Identified During the Flood Suggest Possible Next Steps
          for Internal Revenue Service Contingency Planning Efforts........................Page 5
                    Recommendation 1:........................................................Page 9

                    Recommendation 2:........................................................Page 10

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ...............…….Page 11
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Employee Survey Results ....................................................Page 14
          Appendix V – Executive Survey Results......................................................Page 19
          Appendix VI – Management’s Response to the Draft Report ......................Page 28
       The Internal Revenue Service Building Flood Caused No
              Measurable Impact on Tax Administration




                   Abbreviations

COOP         Continuity of Operations
GSA          General Services Administration
IRS          Internal Revenue Service
                         The Internal Revenue Service Building Flood Caused No
                                Measurable Impact on Tax Administration




                                          Background

In late June 2006, a low-pressure system stalled off the East Coast and produced record rainfall
in the Washington, D.C., area. According to the National Weather Service, the second greatest
daily rainfall ever in Washington, D.C., occurred on June 25, 2006, when 7.09 inches fell in the
city. The heavy rains overwhelmed storm water drainage systems and flooded the subbasement
and basement of the Internal Revenue Service (IRS) National Headquarters building with over
20 feet of water.
The water from the storm severely damaged the building’s electrical, heating, and air
conditioning systems in the subbasement and destroyed offices, vehicles, furniture, and computer
equipment located in the basement and garage. The approximately 2,200 employees who
worked in the building, including the top executives of the IRS’ four functional areas, were
assigned temporary space in other IRS facilities or began telecommuting because of the repair
and rebuilding efforts. As shown in Figure 1, the Office of Chief Counsel, the Deputy
Commissioner for Services and Enforcement, and the Deputy Commissioner for Operations
Support had the most personnel displaced.
                                                             The flood as well as other more
 Figure 1: IRS Headquarters Employees                        significant events, such as the terrorist
          Displaced by the Flood                             attacks on September 11, 2001, and
                                                             Hurricane Katrina in 2005, highlight the
                                            Commissioner,
                                              244, 11%       need for the Federal Government to
          Operations
         Support, 514,
                                                             develop and maintain contingency plans
            23%
                                                             that will ensure essential operations can
                                                             continue to deliver services during a
                                                             wide range of emergencies. To assist
                                                             departments and agencies in this
                                            Chief Counsel,
                                              804, 36%       Government-wide Continuity of
      Services and
      Enforcement,                                           Operations (COOP) planning effort, the
        679, 30%
                                                             Department of Homeland Security has
                                                             outlined required protocols that
 Source: Treasury Inspector General for Tax Administration   departments and agencies are required
 analysis of IRS data.                                       to incorporate into their individual
                                                             COOP plans.
We initiated this and another review in response to a Congressional inquiry into the extent and
nature of disruptions to IRS operations as a result of the flooding. This review focused on the



                                                                                               Page 1
                       The Internal Revenue Service Building Flood Caused No
                              Measurable Impact on Tax Administration



general business resumption activities; the other review addressed issues associated with IRS
computer operations as well as the protection and restoration of taxpayer data.1 In addition, we
anticipate conducting a third review to evaluate the contracting and payment disbursement
processes that will be used to pay for the flood damages. Because the procurement activities will
take place subsequent to the evaluation of the immediate impact and recovery from the flood, we
determined that a separate evaluation and report on the procurement activities will be issued.
This review was performed in the IRS National Headquarters and its office of the Chief,
Agency-Wide Shared Services, during the period July through October 2006. With the
exception of evaluating IRS databases to validate the accuracy and reliability of the information,
the audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




1
 The Internal Revenue Service Adequately Protected Sensitive Data and Restored Computer Operations After the
Flooding of Its Headquarters Building (Reference Number 2007-20-023, dated January 26, 2007).
                                                                                                       Page 2
                     The Internal Revenue Service Building Flood Caused No
                            Measurable Impact on Tax Administration




                                Results of Review

Contingency Plans Were in Place and Promptly Implemented to Help
Minimize the Impact on Taxpayers and Tax Administration
While the flood displaced over 2,200 IRS personnel who worked in the Headquarters building,
we found no measurable impact on taxpayers and tax administration. We attribute this to the
nature of the work performed at this building and the contingency plans the IRS had in place and
implemented to manage the crisis. The IRS personnel who work in the Headquarters building
are involved with strategy, program planning and monitoring, and other activities that do not
require a significant amount of day-to-day contact with taxpayers. Most of the IRS employees
that interact with taxpayers on a day-to-day basis, such as examiners, collectors, and taxpayer
service personnel, work in offices across the country. However, the IRS Office of Chief
Counsel, whose functions include providing legal interpretation of the internal revenue laws and
representing the IRS in litigation, maintains a sizeable staff in the Headquarters building. Of
significant note was this Office’s effort to physically move a computer server containing millions
of documents from the Headquarters building to New York, so the litigation team could resume
work on a major tax litigation case by mid-July. This effort helped achieve a $3.4 billion
settlement in the case.
To ensure the nation’s tax system continues to operate during situations that may disrupt normal
operations, the IRS has developed an array of contingency plans in accordance with applicable
Department of Homeland Security guidance. At the national level, the IRS COOP plan identifies
essential functions and the resources necessary to operate the functions. It also identifies the
order of succession and delegations of authority for decision-making purposes.
In addition to the national COOP plan, the IRS maintains four other contingency plans that are
collectively referred to as the IRS Business Continuity Plan. The Business Continuity Plan
consists of an Occupant Emergency Plan, Incident Management Plan, Business Resumption
Plan, and Disaster Recovery Plan. The Occupant Emergency Plan is required for all IRS offices
throughout the country and is designed to address safety issues of the employees and any visitors
to a building at the time of an emergency. The remaining three contingency plans contain
specific procedures for managing a crisis so business operations can be resumed as quickly as
possible.
Because the flood occurred over a weekend when the building was closed, the Occupant
Emergency Plan was not implemented, as the safety of employees and visitors was not an issue.
Contrary to reports indicating the national COOP plan was implemented, IRS officials decided
the flood did not reach the level of severity to warrant its activation. Instead, IRS officials

                                                                                           Page 3
                           The Internal Revenue Service Building Flood Caused No
                                  Measurable Impact on Tax Administration



focused their efforts on implementing contingency plan procedures designed to handle one of the
biggest challenges presented by the flood–managing the crisis to minimize its impact on business
operations.
Although we did not conduct indepth evaluations of each of the contingency procedures
followed, we did inspect the damaged areas in the building, survey IRS executives and
employees,2 review a damage assessment prepared for the General Services Administration
(GSA), and review documentation related to the IRS’ business resumption activities. In doing
so, we noted considerable evidence that IRS officials closely monitored and coordinated efforts
to recover from the flood and resume normal business processes as quickly as possible. A
centralized office was established in New Carrollton, Maryland, where IRS officials employed
guidelines developed and used during Hurricanes Katrina and Rita to direct recovery and
business resumption activities, coordinate administrative issues, track costs, and arrange
temporary work space for the personnel displaced by the building’s closure.
The IRS reported, and we confirmed during our walk-through, that cleanup and decontamination
activities were completed by mid-July and dehumidifiers had been put in place to dry the
building so rebuilding efforts could be promptly started. Notably, IRS top executives have
started the process of assuring employees that the building will be returned to a safe and usable
condition. This is a particularly important topic to continue addressing because our survey of
209 IRS employees who worked in the building before the flood found that 116 (56 percent) of
the employees have health and safety concerns over returning to the building due to potential
mold and other problems related to moisture-damaged areas. As summarized in Figure 2, our
survey of IRS personnel, started the week of August 7, 2006, also surfaced a number of other
noteworthy actions the IRS has completed in recovering from the flood and resuming business
operations.




2
    See Appendices IV and V for details.
                                                                                          Page 4
                           The Internal Revenue Service Building Flood Caused No
                                  Measurable Impact on Tax Administration



       Figure 2: Noteworthy Actions Completed by the IRS in Resuming Business
                      Operations Identified During Our Surveys
                                    Employee Responses                                            Percentage
     Have full or limited access to normal work tools                                                99%
     Can do most or all of their job responsibilities                                                97%
     Communication with my manager has remained the same or improved                                 91%
     Access to computer information is the same or similar to what it was before the
                                                                                                     95%
     flood
                                    Executive Responses
     Can effectively sustain operations for more than a year in current configuration                71%
     The building’s closure disrupted work in terms of quantity and quality to some
                                                                                                     73%
     or to little or no extent
     The building’s closure had little or no effect on taxpayers served                              60%
     Employees and managers that had access to work tools were affected to a
                                                                                                     78%
     moderate, some, or little or no extent
    Source: Treasury Inspector General for Tax Administration surveys of employees and executives.

Damage estimates as of September 2006 show the GSA will spend approximately $36.8 million
to respond to the flood and repair the IRS Headquarters building. The IRS is expecting to spend
an additional $17.2 million to move personnel to and from temporary rented work space, assist
with cleanup efforts, and replace damaged equipment. The IRS intends to pay for the costs
through the use of yearend savings (surpluses) and user fees.3 IRS officials told us they do not
expect to make a supplemental budget request or postpone/cancel any tax administration
activities to pay for the flood damages.
Issues Identified During the Flood Suggest Possible Next Steps for
Internal Revenue Service Contingency Planning Efforts
While we found no measurable impact on the nation’s tax system, we have observations in two
areas that the IRS may find useful in preparing for and responding to emergencies in the future.
Our first observation involves increasing the availability of laptop computers for telecommuting
so more IRS personnel can continue working during emergencies. Another possible next step
the IRS could take is to thoroughly analyze and document its overall performance in responding

3
  User fees are defined as charges individuals and businesses are required to pay for special benefits received beyond
those received by the general public and, in general, can be used to supplement the funding of a variety of IRS
operations.
                                                                                                             Page 5
                        The Internal Revenue Service Building Flood Caused No
                               Measurable Impact on Tax Administration



to the flood. Such an assessment could provide an important tool for the IRS if it is faced with a
similar or greater challenge in the future.
Increasing the availability of laptop computers for telecommuting could further
strengthen the IRS’ ability to continue working during emergencies
Commonly referred to as telecommuting, the practice of enabling employees to work at home or
a location other than their regular office has generated considerable interest in both the private
sector and Federal Government because of the potential benefits it offers. Telecommuting, if
effectively implemented, has the potential to enhance COOP efforts so work can continue during
emergency situations, save the costs of renting and maintaining office space, assist employers in
attracting and retaining the best possible workforce, and relieve traffic congestion associated
with commuting to and from offices.
To take advantage of the potential benefits offered, Congress began enacting a series of laws4 in
1995 that encourage and direct agencies to provide telecommuting solutions for a greater
number of Federal Government employees. Several agencies are also actively involved in
promoting the use of telecommuting as a best practice in Federal Government COOP planning
efforts. Office of Personnel Management officials, for example, have reported coordinating
efforts with GSA officials in making agency visits to reinforce the importance of and
connection between telecommuting and COOP planning; they are collecting data on the
progress being made in this area for Congress and other stakeholders. Additionally, the Federal
Emergency Management Agency revised its continuity planning guidance5 to encourage
agencies Federal Government-wide to add telecommuting to their COOP plans in the future; it
anticipates making additional changes to further strengthen the guidance.
The IRS has a long history of enabling employees to work at home or a location other than their
regular office. As we reported in 2005,6 the IRS first implemented a telecommuting program
known as the Flexiplace Program in 1995, and by 2003 the IRS had estimated there were
approximately 27,000 employees participating in the Program. Despite the popularity of the
Flexiplace Program, the IRS Chief Human Capital Officer7 agreed to complete a number of


4
  Some of the specific legislation that applies to telecommuting includes Making Appropriations for the Department
of Transportation and Related Agencies, for the Fiscal Year Ending September 30, 2001, and for Other Purposes,
Pub. L. No. 106-346, Section (§) 359 of October 23, 2000; Making Appropriations for Agriculture, Rural
Development, Food and Drug Administration, and Related Agencies, for the Fiscal Year Ending
September 30, 2004, and for Other Purposes, Pub. L. No. 108-199, Division B, § 627 of January 23, 2004; and
Making Appropriations for Foreign Operations, Export Financing, and Related Programs for the Fiscal Year Ending
September 30, 2005, and for Other Purposes, Pub. L. No. 108-447, Division B, § 622 of December 8, 2004.
5
  Federal Preparedness Circular 65 (dated June 15, 2004).
6
  Improved Policies and Guidance Are Needed for the Telework Program (Reference Number 2005-10-107,
dated July 2005).
7
  The IRS Chief Human Capital Officer has certain administrative responsibilities for gathering information about
the Flexiplace Program and for monitoring the Program.
                                                                                                          Page 6
                           The Internal Revenue Service Building Flood Caused No
                                  Measurable Impact on Tax Administration



recommended actions that the report identified were needed to make the Program more
effective. However, to date, most of the actions have not been completed. The actions include
one that involves providing needed logistical support and equipment for employees to work
productively while telecommuting.
Because this and the other issues have yet to be resolved, many IRS personnel who were
displaced by the flood were either unable to telecommute or unable to do so effectively, which
created some hardships on IRS personnel. Approximately 40 percent of the IRS personnel we
surveyed are expecting to experience longer commutes and incur additional costs when they are
no longer reimbursed for reporting to their temporary office sites. Besides creating hardships,
the inability to telecommute or do so effectively also resulted in granting IRS personnel
approximately 101,000 hours of administrative leave (excused absence from work with no loss
of pay) that otherwise may have been lower.
The IRS time reporting system data show that, in the first week following the flood, around
1,700 IRS personnel8 were placed on administrative leave, which is about 77 percent of the
approximately 2,200 personnel who were working in the building. Although the analysis in
Figure 3 shows the amount of administrative leave dramatically decreased in the ensuing weeks
as alternate working sites were arranged, our analysis shows the administrative leave involved
salary costs of approximately $4.2 million.
    Figure 3: Hours and Salary Costs Associated With Administrative Leave Taken
                   After Closure of the IRS Headquarters Building


     Dates of Administrative Leave                          Hours Involved         Salary Cost Involved
     June 26, 2006, through June 30, 2006                         68,016                   $2,968,832

     July 3, 2006, through July 7, 2006                           23,726                    $966,079

     July 10, 2006, through July 14, 2006                          5,110                    $150,269

     July 17, 2006, through July 21, 2006                          2,773                    $72,772

     July 24, 2006, and after                                      1,643                    $49,849

     Totals                                                       101,268                  $4,207,801
    Source: Treasury Inspector General for Tax Administration analysis of the IRS Single Entry Time Reporting
    System.


8
 We calculated this number by dividing the number of administrative hours taken for the week by 40. However,
some employees may have taken fewer than the full 40 hours, so a greater number of employees may have been on
administrative leave at least part time.
                                                                                                           Page 7
                         The Internal Revenue Service Building Flood Caused No
                                Measurable Impact on Tax Administration



When considering the salary costs involved with the administrative leave taken, it is important to
recognize what it does and does not represent. The administrative salary costs measure the costs
associated with the productivity that may have been achieved had more IRS personnel been
working. The administrative salary costs do not represent any additional outlays of funds.
Consequently, the administrative salary costs are not included in the $17.2 million of estimated
costs described earlier in the report.
As the IRS moves forward with actions needed to make its telecommuting program more
effective, available evidence suggests it will be particularly important to increase the availability
of laptop computers that will give employees the ability to communicate remotely through the
IRS network systems. We found, for example, that the GSA approved the use of its 14 Telework
Centers in the Washington, D.C., metropolitan area for displaced IRS employees at no cost to the
IRS. However, the IRS’ ability to use these Centers was limited because only those employees
who had laptops with the ability to connect9 to the IRS network were permitted to use the
Centers. According to a July 14, 2006, IRS report, only four Headquarters employees had used
one of these Centers. Moreover, we noted that a frequent concern expressed by IRS personnel
during our survey was the limited availability of laptop computers.
The IRS could benefit by thoroughly analyzing and documenting its overall
performance in responding to the flood
The IRS recognizes, as we have previously reported,10 the need for and importance of conducting
a comprehensive analysis of the successes achieved and problems encountered when handling
new challenges. An assessment can provide important lessons learned that can be used in
responding to future emergency events. Although the IRS staff under the Chief, Agency-Wide
Shared Services,11 has already started evaluating what went well and what did not, we identified
two areas of concern during our work that the IRS staff may find useful to include in their
assessment.
To its credit, the IRS anticipated the building would not be accessible following the flood and
relied on a variety of communication channels to inform its personnel of the building’s closure.
As a result, most of the IRS personnel we surveyed avoided the time and expense of reporting to
the building. Figure 412 shows the various communication channels used and the relatively low
percentage of IRS employees (15 percent) and executives (9 percent) in our survey who reported


9
  The Enterprise Remote Access Project provides connectivity for the IRS’ remote sites to the IRS Data Centers
using Virtual Private Networks technology. This Project supports normal IRS business operations by providing
access to standard networked IRS enterprise applications and resources.
10
   The Internal Revenue Service Successfully Accounted for Employees and Restored Computer Operations After
Hurricanes Katrina and Rita (Reference Number 2006-20-068, dated March 2006).
11
   The IRS Agency-Wide Shared Services Office, among other things, develops procedures and implements policy
for the IRS’ internal real estate and facilities management, personnel, procurement, and customer support activities.
12
   Percentages may not total 100 percent due to rounding.
                                                                                                              Page 8
                       The Internal Revenue Service Building Flood Caused No
                              Measurable Impact on Tax Administration



to the building on the first workday following the flood. Subsequently, the IRS moved quickly
to establish a web site on its Intranet to keep personnel informed as conditions were identified.
                                                              While the IRS reacted quickly to
  Figure 4: How Employees and Executives
                                                              establish communications channels,
              Learned of the Flood
                                                              ensuring telephone and voice mail
                                                              listings for its personnel are promptly
          100%                             Other              updated with accurate contact
                    12%        13%
           80%      15%         9%                            information following an emergency
                                           Went to
                                           Building
                                                              incident is an area of concern. The IRS
           60%      33%        38%
                                           News
                                                              telephone and voice mail systems are
           40%
                    14%                    Media              one of the primary means by which its
                               27%         Co-Worker          personnel carry on the day-to-day
           20%
                    25%                                       business of administering our nation’s
                               13%
            0%                             Superior           tax system. Despite their importance,
                 Employee Executive
                                                              IRS officials were unable to provide us
  Source: Treasury Inspector General for Tax Administration
                                                              with accurate contact information for
  surveys of IRS employees and executives.                    IRS personnel as of August 2, 2006,
                                                              although most employees had returned to
                                                              work by July 14, 2006.
The second area of concern involves ensuring IRS personnel are knowledgeable of their roles
and responsibilities during emergency events. According to IRS contingency plans, certain IRS
personnel are designated to assume responsibility for ensuring critical tax administration work
processes continue to operate during emergency situations. Because of the important role these
personnel have in IRS contingency plans, it is very important to ensure they are aware of their
designations during emergencies. Our results from surveying 209 IRS employees found
58 (28 percent) did not know how they were designated following the flood. Of these
58 employees, we determined that 19 had in fact been designated as critical.
In the situation caused by the flood, the IRS was not adversely affected by the confusion over
which employees were designated as critical. The IRS is fortunate that there was sufficient
capability to resume critical administrative and tax administration work processes. However, a
future emergency may require all critical employees to be available. Therefore, it is important
for the IRS to ensure all employees understand their roles and responsibilities in an emergency
and its aftermath.
Recommendations
Recommendation 1: The Chief Human Capital Officer should develop a business case for
deciding whether to expand telecommuting participation by increasing the availability of laptop
computers for IRS personnel using desktop computers. The business case should include a
comparison of the various costs and benefits associated with replacing desktop computers as they

                                                                                              Page 9
                     The Internal Revenue Service Building Flood Caused No
                            Measurable Impact on Tax Administration



reach the end of their useful lives with laptop computers having the capability of remotely
connecting with IRS networks.
Management’s Response: IRS management partially agreed with this recommendation.
The IRS agreed that expanding telecommuting participation and the use of laptops can serve
business resumption needs. The IRS noted, among other things, that during its incident
management and business resumption preparedness activities it will advocate the consideration
and use of telecommuting as a contingency planning strategy, encourage using laptops in
emergency situations, and recommend that these decisions be included in its business
resumptions plans. However, the IRS also expressed the position that our recommendation
extended beyond the scope of its Chief Human Capital Officer’s responsibility and, therefore,
did not commit to developing a business case for deciding whether to expand telecommuting
participation by increasing the availability of laptop computers for its personnel.
Office of Audit Comment: We are pleased the IRS recognized the important role that
telecommuting and the availability of laptops can play in preparing for and responding to
emergency events, so the risk of disrupting Federal Government services is minimized. We are
concerned, however, about the IRS’ decision to advocate, rather than require, that its business
units develop business case analyses for deciding whether to expand telecommuting participation
by increasing the availability of laptop computers for its personnel. Business case analysis is a
well-recognized process in the Federal Government and private industry to demonstrate that a
particular need exists and how that need can best be satisfied with available resources.
Consequently, without such analysis, business units may not be as likely to take all the necessary
steps to ensure their personnel are well positioned to continue delivering services and performing
operations in the event of an extended emergency.
Recommendation 2: The Chief, Agency-Wide Shared Services, should ensure a
comprehensive analysis is completed on the IRS’ overall performance in responding to and
recovering from the flood. The evaluation should identify all challenges the IRS faced in dealing
with the emergency, including the successes and lessons learned. Additionally, the evaluation
should be well documented to provide a roadmap for dealing with future emergency situations of
this magnitude or greater.
Management’s Response: IRS management agreed with this recommendation. The IRS
indicated, among other things, it is finalizing a document to capture the analysis conducted and
lessons learned from the flood.




                                                                                          Page 10
                     The Internal Revenue Service Building Flood Caused No
                            Measurable Impact on Tax Administration




                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The objective of the review, initiated at the request of the Ranking Member of the United States
Senate Committee on Finance, was to determine the extent and nature of disruptions to IRS
operations and to identify the functions most affected by the flood. The request also asked that
we determine the cost and challenges the IRS faces in dealing with the flood, how it plans to pay
for remediation, and the impact on taxpayers and tax administration. During the review, we
relied on databases provided to us by the IRS. We did not determine the accuracy and reliability
of the information in any of the databases due to time constraints. To meet the objective, we:
I.     Reviewed the flood damage assessment report prepared for the GSA to identify
       preliminary findings and cost estimates associated with flooding.
II.    Reviewed a significant amount of material to gain an understanding of and the need for
       continuity planning. The sources included published literature, the Federal Emergency
       Management Agency Federal Preparedness Circular 65 (dated June 15, 2004), the four
       IRS contingency plans collectively referred to as its Business Continuity Plan, and prior
       Government Accountability Office and Treasury Inspector General for Tax
       Administration reports on continuity preparations.
III.   Interviewed IRS officials responsible for continuity planning and evaluated supporting
       documentation to determine whether the Business Continuity Plan was developed and
       activated and whether all or a portion of the Plan was implemented.
IV.    Used judgmental sampling (because this method was sufficient to meet our overall
       objective) in surveying 209 IRS employees and 45 executives who, according to IRS
       records, were assigned to the IRS Headquarters building at the time of the flood. We
       used the survey results to help identify the functions most affected by the flooding; the
       challenges the IRS faces in dealing with the damages; and the disruptions, if any, to
       normal operations.
V.     Analyzed supporting documentation and interviewed IRS Real Estate and Facilities
       Management office personnel and GSA officials responsible for assessing the flood
       damage to determine the costs incurred as a result of the flood and how the IRS plans to
       pay for the remediation.
VI.    Reviewed photographs and physically toured the basement level of the building to gain a
       better understanding of the nature and extent of the damages incurred.



                                                                                           Page 11
                    The Internal Revenue Service Building Flood Caused No
                           Measurable Impact on Tax Administration




                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Philip Shropshire, Director
Frank Dunleavy, Audit Manager
Thomas Dori, Lead Auditor
Earl Charles Burney, Senior Auditor
Gwendolyn Gilboy, Senior Auditor
Timothy Greiner, Senior Auditor
Allen Grey, Senior Auditor
Karen Stafford, Senior Auditor
William Tran, Senior Auditor




                                                                                        Page 12
                   The Internal Revenue Service Building Flood Caused No
                          Measurable Impact on Tax Administration




                                                                 Appendix III

                         Report Distribution List

Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief, Mission Assurance and Security Services OS:MA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL: LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner C
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief Counsel CC
       National Taxpayer Advocate TA




                                                                       Page 13
                          The Internal Revenue Service Building Flood Caused No
                                 Measurable Impact on Tax Administration




                                                                                  Appendix IV

                                  Employee Survey Results

The following text is the script we used when surveying 209 employees affected by the closure
of the IRS Headquarters building due to the flood on June 25, 2006. Following the script are the
survey questions and a summary of the responses to these questions.
“The Treasury Inspector General for Tax Administration (TIGTA), at the request of the Senate
Finance Committee, is conducting an evaluation of the extent and nature of disruptions to IRS
operations caused by the flooding at its Headquarters building. As part of the evaluation, we are
surveying employees who, according to IRS records, were assigned to the building at the time of
the flooding.
Your participation in the survey will help us identify the functions that were impacted the most
by flooding. Additionally, it will help identify the challenges [the] IRS faces in dealing with the
damages incurred and the disruptions, if any, to normal operations.”
1)“Are you working from?”1
           IRS Space         90              (43%)
           GSA Space        104              (50%)
           Home              15              ( 7%)
2)“How did you find out the IRS building had been closed because of the flooding?”
           My manager                53      (25%)
           A co-worker               30      (14%)
           The news media            69      (33%)
           I went to the building 32         (15%)
           Other                     25      (12%)




1
    Some percentages may not total 100 percent due to rounding.




                                                                                            Page 14
                         The Internal Revenue Service Building Flood Caused No
                                Measurable Impact on Tax Administration



3)“Are you classified as a critical or noncritical employee?” 2
        I am classified as a critical employee                 74      (35%)
        I am classified as a noncritical employee             101      (48%)
        I do not know how I am classified                      34      (16%)
4)“Are you designated as a COOP essential team member?”
        Yes, I am a member of the COOP essential team                                     21      (10%)
        No, I am not a member of the COOP essential team                                 162      (78%)
        I do not know if I am a member of the COOP essential team                         26      (12%)
5)“When were you contacted with the arrangements for you to continue working?”
        The week of June 26th               162      (78%)
        The week of July 3rd                 30      (14%)
        The week of July 10th                 9      ( 4%)
        The week of July 17th                 2      ( 1%)
                                 th
        The week of July 24                   3      ( 1%)
        I have never been contacted           3      ( 1%)
6)“Did you telecommute after the event?” (If yes, continue; if no, skip to question #12)
        Yes, I telecommuted following the flooding                     106      (51%)
        No, I did not telecommute following the flooding               103      (49%)
7)“When was the expectation for you to telecommute communicated to you?”
          It was communicated to me before the flood                                              12       (11%)
          It was communicated to me after the flood                                               78       (74%)
          The expectation was not communicated to me; it was self-initiated                       16       (15%)




2
  While the survey responses show that 34 IRS personnel did not know how they were classified, IRS records
indicate that 24 IRS personnel who responded to our survey mistakenly classified themselves as either a critical or
noncritical employee. Consequently, we concluded that 58 of the employees surveyed did not know how they were
designated.
                                                                                                          Page 15
                          The Internal Revenue Service Building Flood Caused No
                                 Measurable Impact on Tax Administration



8)“Were you provided with adequate training before telecommuting?”
            Yes, I was provided with adequate training                71          (67%)
            No, I was not provided with adequate training               7         ( 7%)
            No, I was not provided with any training                  28          (26%)
9)“Had you adequate experience with telecommuting before the flooding situation made it
necessary?”
            Yes, I had adequate experience                                        78      (74%)
            No, I did not have adequate experience                                 8      ( 8%)
            No, I had no experience with telecommuting                            20      (19%)
10)“Were you provided with adequate technical tools (such as computers) to telecommute?”3
           Yes, I was provided with adequate technical tools to telecommute                       51   (49%)
           No, I was not provided with adequate technical tools to telecommute                    43   (41%)
           I had no need to be provided with technical tools                                      11   (10%)
11)“Were you provided with adequate technical assistance while you telecommuted?”
           Yes, I was provided with adequate technical assistance                 45      (42%)
           No, I was not provided with adequate technical assistance               9      ( 8%)
           I had no need for technical assistance                                 52      (49%)
12)“ Do you have access to your normal work tools to perform your work with minimal impact?”
           I have full access to my normal work tools                 156         (75%)
           I have limited access to my normal work tools                51        (24%)
           I do not have access to my normal work tools                     2     ( 1%)
           I do not need to access normal work tools                        0     ( 0%)




3
    One employee surveyed who did telecommute did not respond to this question.
                                                                                                       Page 16
                          The Internal Revenue Service Building Flood Caused No
                                 Measurable Impact on Tax Administration



13)“To what extent are you able to perform your job responsibilities?”
           I can fully perform my job responsibilities   160     (77%)
           I can do most of my job responsibilities       43     (21%)
           I can do some of my job responsibilities       6      ( 3%)
           I can do few of my job responsibilities        0      ( 0%)
           I cannot perform my job responsibilities       0      ( 0%)
14)“Rate the effect of the disruption that the IRS building closure has caused within your work
unit.”
           No degree of disruption       14      ( 7%)
           A small degree of disruption 55       (26%)
           Some degree of disruption     82      (39%)
           A great degree of disruption 58       (28%)
15)“Describe the communications you are having with your manager.”
           I have the usual communications; not much is different        164   (78%)
           The communications are more frequent                          26    (12%)
           The communications are less frequent                          17    ( 8%)
           I haven’t had much communication                               2    ( 1%)
16)“Do you have the same or similar access to your computer information?”
           I have the same or similar access                                           199   (95%)
           I don’t have the same or similar access, but I can get my work done         10    ( 5%)
           I do not have sufficient access to get my work done                          0    ( 0%)
           N/A,4 I don’t usually use a computer to do my work                           0    ( 0%)




4
    N/A means not applicable.
                                                                                             Page 17
                        The Internal Revenue Service Building Flood Caused No
                               Measurable Impact on Tax Administration



17)“Are sufficient office supplies available for you to do your work?”
        Yes, supplies have been provided                                                      128      (61%)
        Yes, supplies have been provided, but I still need some important items                 49     (23%)
        No, I have not received any supplies and I need them to accomplish my
        work                                                                                    13     ( 6%)
        This is not an issue for me                                                             19     ( 9%)
18)“Has the IRS Headquarters closure caused you significant hardship, increasing the time of
your commute?”5
        Yes       75     (36%)
        No       134     (64%)
19)“Has the IRS Headquarters closure caused you significant hardship by changing the method
of your commute?”
        Yes       48     (23%)
        No       161     (77%)
20)“When the building has been repaired and is ready to be reoccupied, do you have health and
safety concerns?”
        I am concerned about whether the building will be safe                 2      ( 1%)
        I am concerned with the possible health risks                        60       (29%)
        I am concerned with both safety and health risks                     54       (26%)
        I have no concerns about either                                      93       (44%)




5
 The survey included 40 IRS personnel who answered “Yes” to both questions 18 and 19. Consequently,
approximately 40 percent (83 out of 209) of the IRS personnel surveyed experienced longer commutes and incurred
additional costs when reporting to their temporary office sites.
                                                                                                      Page 18
                          The Internal Revenue Service Building Flood Caused No
                                 Measurable Impact on Tax Administration




                                                                                   Appendix V

                                Executive Survey Results

The following text is the script we used when surveying 45 executives affected by the closure of
the IRS Headquarters building due to the flood on June 25, 2006. Following the script are the
survey questions and a summary of the responses to these questions.
“The Treasury Inspector General for Tax Administration (TIGTA), at the request of the Senate
Finance Committee, is conducting an evaluation of the extent and nature of disruptions to IRS
operations caused by the flooding at its Headquarters building. As part of the evaluation, we are
surveying executives who, according to IRS records, were assigned to the building at the time of
the flooding.
Your participation in the survey will help us identify the functions that were impacted the most
by flooding. Additionally, it will help identify the challenges [the] IRS faces in dealing with the
damages incurred and the disruptions, if any, to normal operations.”
1)“How did you find out the IRS building had been closed because of the flooding?”1
           My superior                6      (13%)
           A co-worker               12      (27%)
           The news media            17      (38%)
           I went to the building 4          ( 9%)
           Other                      6      (13%)




1
    Some percentages may not total 100 percent due to rounding.
                                                                                            Page 19
                         The Internal Revenue Service Building Flood Caused No
                                Measurable Impact on Tax Administration



2)“How were you assured the employees and managers that report to you directly or indirectly
through a lower level manager were advised of the flood?” 9
9 Each executive surveyed identified all of the methods used to assure his or her employees were advised of the
flood. Therefore, the totals of all the responses listed below will exceed 45 (number of executives surveyed).

        Telephone/Voice mail                                                                      34
        Cell phone                                                                                11
        Blackberry                                                                                 9
        Email                                                                                     13
        The news media                                                                            10
        They went to the building                                                                  3
        Relied on lower level managers to advise the employees/other managers                     11
        No basis to comment                                                                        5
3)“What communication tools were working and available to you personally upon returning to
work immediately following the flood (check all that apply)?”
        Telephone/Voice mail                  3      ( 7%)
        Cell phone                            1      ( 2%)
        Blackberry                            1      ( 2%)
        Email                                 0      ( 0%)
        Other                               40       (89%)
4)“What communication tools were working and available to the employees and managers that
report to you directly or indirectly through a lower level manager when they returned to work
immediately following the flood (check all that apply)?”
        Telephone/Voice mail were available to those that had
        access to the tools prior to the flood                                   4       ( 9%)
        Cell phone was available to those that had access to the
        tool prior to the flood                                                  1       ( 2%)
        Blackberry was available to those that had access to the
        device prior to the flood                                                0       ( 0%)
        Email was available to those that had access to the tool
        prior to the flood                                                       0       ( 0%)
        Other                                                                   40       (89%)

                                                                                                          Page 20
                       The Internal Revenue Service Building Flood Caused No
                              Measurable Impact on Tax Administration



5)“To what extent are you familiar with your agency’s Continuity of Operations (COOP) plan as
it applies to your operation?”
       Very familiar                         21      (47%)
       More familiar than unfamiliar         13      (29%)
       Neither familiar nor unfamiliar           3   ( 7%)
       More unfamiliar than familiar             6   (13%)
       Very unfamiliar                           2   ( 4%)
       No basis to judge                         0   ( 0%)
6)“Overall, how satisfied or dissatisfied are you with your COOP plan?”
       Very satisfied                        20      (44%)
       More satisfied than dissatisfied      17      (38%)
       Neither satisfied nor dissatisfied        4   ( 9%)
       More dissatisfied than satisfied          1   ( 2%)
       Very dissatisfied                         0   ( 0%)
       No basis to judge                         3   ( 7%)
7)“Overall, how satisfied or dissatisfied were you with how your COOP plan was implemented?”
       Very satisfied                                             26      (58%)
       More satisfied than dissatisfied                           13      (29%)
       Neither satisfied nor dissatisfied – go to next question    2      ( 4%)
       More dissatisfied than satisfied – go to next question      0      ( 0%)
       Very dissatisfied – go to next question                     0      ( 0%)
       No basis to judge                                           4      ( 9%)




                                                                                      Page 21
                        The Internal Revenue Service Building Flood Caused No
                               Measurable Impact on Tax Administration



8)“To what extent is your lack of satisfaction due to a poorly conceived COOP plan versus poor
implementation of the COOP plan?” 9
9 This question received no responses because in the previous question the respondents did not indicate any
dissatisfaction with how the COOP plan was implemented.

        The COOP plan was very poorly conceived                                         0        (0%)
        The COOP plan was poorly conceived                                              0        (0%)
        The COOP plan was poorly implemented                                            0        (0%)
        The COOP plan was very poorly implemented                                       0        (0%)
        The COOP plan was poorly conceived and poorly implemented                       0        (0%)
9)“To what extent, if at all, could your COOP plan be improved?”
        To a very great extent               0       ( 0%)
        To a great extent                    3       ( 7%)
        To a moderate extent                15       (33%)
        To some extent                      13       (29%)
        To little or no extent               8       (18%)
        Do not know                          6       (13%)
10)“To what extent, if any, could lessons be learned from implementing your COOP Plan?”
        To a very great extent                                 5      (11%)
        To a great extent                                      5      (11%)
        To a moderate extent                                 14       (31%)
        To some extent                                       10       (22%)
        To little or no extent                                 5      (11%)
        Do not know                                            6      (13%)




                                                                                                         Page 22
                      The Internal Revenue Service Building Flood Caused No
                             Measurable Impact on Tax Administration



11)“In your opinion, how long can you and your staff effectively sustain operations in your
current configuration?”
       1 month                                        0      ( 0%)
       More than 1 month but less than 3 months       0      ( 0%)
       3 – 6 months                                   9      (20%)
       6 – 9 months                                   4      ( 9%)
       9 – 12 months                                  0      ( 0%)
       More than a year                              32      (71%)
12)“To what extent, if at all, did the IRS building closure disrupt your operation’s work in terms
of its quantity and quality?”
       To a very great extent          0     ( 0%)
       To a great extent               2     ( 4%)
       To a moderate extent           10     (22%)
       To some extent                 20     (44%)
       To little or no extent         13     (29%)
       Do not know                     0     ( 0%)
13)“To what extent, if at all, did the IRS building closure adversely affect taxpayers served by
your operations?”
       To a very great extent          0     ( 0%)
       To a great extent               1     ( 2%)
       To a moderate extent            0     ( 0%)
       To some extent                  4     ( 9%)
       To little or no extent         27     (60%)
       Do not know                     0     ( 0%)
       N/A                            13     (29%)




                                                                                           Page 23
                     The Internal Revenue Service Building Flood Caused No
                            Measurable Impact on Tax Administration



14)“To what extent, if at all, did the IRS building closure adversely affect the job performance
(quantity and quality) of the employees and managers that report to you directly or indirectly
through a lower level manager?”
       To a very great extent          0     ( 0%)
       To a great extent               1     ( 2%)
       To a moderate extent            4     ( 9%)
       To some extent                 21     (47%)
       To little or no extent         19     (42%)
       Do not know                     0     ( 0%)
15)“To what extent, if at all, did the IRS building closure adversely affect the ability of the
employees and managers in your operation to access the work tools they need for performing
their job?”
       To a very great extent          2     ( 4%)
       To a great extent               8     (18%)
       To a moderate extent           12     (27%)
       To some extent                 10     (22%)
       To little or no extent         13     (29%)
       Do not know                     0     ( 0%)
16)“How would you rate the communications and assistance you are receiving from personnel in
the IRS Agency-Wide Shared Services Office?”
       Excellent                      27     (60%)
       Good                           12     (27%)
       Adequate                        6     (13%)
       Poor                            0     ( 0%)
       Very Poor                       0     ( 0%)




                                                                                           Page 24
                        The Internal Revenue Service Building Flood Caused No
                               Measurable Impact on Tax Administration



17)“Taking everything into consideration, how would you rate the quality and amount of the
information you are receiving about the damage done and repairs needed to the building?”
        Excellent        23       (51%)
        Good               9      (20%)
        Adequate         11       (24%)
        Poor               1      ( 2%)
        Very Poor          1      ( 2%)
18)“Did you telecommute after the event?”
        Yes      12      (27%)
        No       33       (73%) 9
9 The 12 executives that responded yes continued; those that answered no skipped down to question
#24.

19)“When was the expectation for you to telecommute communicated to you?”
        It was communicated to me before the flood                                    2        (17%)
        It was communicated to me after the flood                                     1        ( 8%)
        The expectation was not communicated to me; it was self-initiated 9                    (75%)
20)“Were you provided with adequate training before you telecommuted?”
        Yes, I was provided with adequate training                   10      (83%)
        No, I was not provided with adequate training                 0      ( 0%)
        No, I was not provided with any training                      2      (17%)
21)“Did you have adequate experience with telecommuting before the flooding situation made
telecommuting necessary?”
        Yes, I had adequate experience prior to being asked                           11       (92%)
        No, I did not have adequate experience prior to being asked                     0      ( 0%)
        No, I had no experience with telecommuting                                      1      ( 8%)
22)“Were you provided with adequate technical tools (such as computers) to telecommute?”
        Yes                                        12       (100%)
        No                                           0      (   0%)
        I had no need for such tools                 0      (   0%)

                                                                                                       Page 25
                        The Internal Revenue Service Building Flood Caused No
                               Measurable Impact on Tax Administration



23)“Were you provided with adequate technical assistance during the time you were expected to
telecommute?”
        Yes                                                  8        (67%)
        No                                                   0        ( 0%)
        I had no need for technical assistance               4        (33%)
24)“ Did any of your employees and managers telecommute after the event?”
        Yes, all of my employees telecommuted                          5      (11%)
        Yes, some of my employees telecommuted                        29      (64%)
        None of my employees telecommuted                             11      (24%) 9
9 The remaining questions apply only to those executives that answered yes.
25)”When did you communicate to your employees and managers the expectation for them to
telecommute?”
        Before the flood                                                                 4   (12%)
        After the flood                                                                 27   (79%)
        I did not communicate the expectation to them; it was self-initiated             3   ( 9%)
26)“In your opinion, were your employees and managers provided with adequate training before
they began telecommuting?”
        Yes                                                           29      (85%)
        No                                                             1      ( 3%)
        No, they were not provided with any training                   4      (12%)
27)“In your opinion, did your employees and managers have adequate experience with
telecommuting before the flooding situation made telecommuting necessary?”
        Yes, they had adequate experience                             31      (91%)
        No, they did not have adequate experience                      3      ( 9%)
        No, they had no experience with telecommuting                  0      ( 0%)




                                                                                             Page 26
                    The Internal Revenue Service Building Flood Caused No
                           Measurable Impact on Tax Administration



28)“In your opinion, were your employees and managers provided with adequate technical tools
(such as computers) to telecommute?”
       Yes, they were provided with adequate technical tools        20   (59%)
       No, they were not provided with adequate technical tools     11   (32%)
       They did not need to be provided with technical tools        3    ( 9%)
29)“In your opinion, were your employees and managers provided with adequate technical
assistance during the time they were expected to telecommute?”
       Yes, they were provided with adequate technical assistance        23      (68%)
       No, they were not provided with adequate technical assistance      1      ( 3%)
       They did not need technical assistance                            10      (29%)




                                                                                         Page 27
      The Internal Revenue Service Building Flood Caused No
             Measurable Impact on Tax Administration




                                                   Appendix VI

Management’s Response to the Draft Report




                                                         Page 28
The Internal Revenue Service Building Flood Caused No
       Measurable Impact on Tax Administration




                                                   Page 29
The Internal Revenue Service Building Flood Caused No
       Measurable Impact on Tax Administration




                                                   Page 30
